UNITED STATES OF AMERICA ™
FEDERAL TRADE COMMISSION Wp

WASHINGTON, D.C. 20580

aN A 6
Office of the Secretary ae

April 18, 2006

 

Carl G. Bartholomaus, Corporate Counsel
DuPont Company

Building 23-2128

Barley Mill Plaza

Wilmington, Delaware 19880-0023

Re: Petition of Mohawk Industries, Inc., E.I. du Pont de Nemours and
Company, and PTT Poly Canada (“Petitioners”) for a new generic fiber
name and definition under the Rules and Regulations Under the Textile
Fiber Products Identification Act, 16 C.F.R. Part 303.

Dear Mr. Bartholomaus:

Pursuant to Rule 8(b) of the Rules and Regulations Under the Textile Fiber Products
Identification Act, 16 C.F.R. § 303.8(b), the Commission has assigned the designation “PTT001”
to Petitioners’ PTT fiber for temporary use until a final determination can be made as to the
merits of the application.

The assignment of this temporary designation should not be construed as indicating that
the Commission will either grant or deny the application or that the Commission has determined

the application to be complete.

Donald S. Clark
Secretary

By direction of the Commission.
